No. 19-

 

IN THE
Suprene Court of the United States

Tony DESHAWN McCoy,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing
Petition for a Writ of Certiorari for contains __.5,417G@ _words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on December 26, 2019.

Pamela S. Karlan
Counsel for Petitioner
